       THE IMMIGRATION AND NATURALIZATION SERVICE’S
                  AUTOMATED I-94 SYSTEM

                            EXECUTIVE SUMMARY

       “Overstays” are nonimmigrants who do not depart the United States upon
expiration of their authorized stays. According to an Immigration and
Naturalization Service (INS) report published in November 2000, overstays
represent about 40 percent of the estimated 5 million illegal immigrants currently
residing in the United States. The Department of Justice FY 1999 Annual
Accountability Report listed the monitoring of alien overstays as a “Management
Challenge” and stated that the collection of automated arrival and departure
records would help ensure complete and reliable data.

      The form used to collect arrival and departure data is the I-94. The INS
began developing a system to automate the processing of air passenger I-94 forms
in 1995. Both the Illegal Immigration Reform and Immigrant Responsibility Act
of 1996 and the Immigration and Naturalization Service Data Management
Improvement Act of 2000 require the INS to develop an automated entry/exit
system for use at land, air, and sea ports of entry. The laws differ in time frames
and definition of “automated entry/exit system.” The INS planned to use the
Automated I-94 System to help meet the requirements of both laws.

       Our audit focused on the design and implementation of the Automated
I-94 System. The system currently operates at four air ports of entry; the INS has
not implemented the I-94 System at any land or sea ports of entry. We found that
the INS has not properly managed the project. As a result, despite having spent
$31.2 million on the system from FY 1996 to FY 2000, the INS: (1) does not have
clear evidence that the system meets its intended goals; (2) has won the
cooperation of only two airlines and is operating the system at only four airports;
and (3) is in the process of modifying the system. Recent INS projections estimate
that an additional $57 million will be needed for FY 2001 through FY 2005 to
complete the system. These projections include development, equipment, and
operations and maintenance costs. As a result of these concerns and the amount of
money needed to complete the system, we make a number of recommendations
aimed at ensuring that the INS rigorously analyzes the costs, benefits, risks, and
performance measures of the Automated I-94 System before proceeding with
further expenditures or implementation.

       Specifically, we found that as the project progressed through its life cycle
the INS’s efforts to compare interim results against estimates were inadequate.
The INS did not: (1) convert the project’s intended purpose into measurable goals,
(2) collect baseline information, and (3) complete a cost-benefit analysis. We also


                                        -i-
found that the INS did not adequately manage the risks associated with the system.
One risk, the lack of air carrier participation, has halted the deployment of the
system as currently configured. This risk might have been mitigated had the INS
developed the risk management plan required by its systems development life
cycle model. The INS is currently evaluating ways to modify the system so that
air carrier participation is not necessary. However, INS officials provided no
details on the nature of these modifications to allow us to determine the feasibility
of operating the system without voluntary air carrier participation.

        Our audit objective, scope, and methodology appear in Appendix III. The
details of our work are contained in the Findings and Recommendations section of
the report.




                                        - ii -
                                           TABLE OF CONTENTS

INTRODUCTION ...................................................................................................... 1

FINDINGS AND RECOMMENDATIONS............................................................... 6

         I.       AUTOMATED I-94 SYSTEM PERFORMANCE NOT
                  MEASURED ........................................................................................ 6
                      Performance Measures Not Established .................................... 6
                      Stated Goals Not Converted to Measurable Objectives ............ 8
                      Baseline Information Not Gathered........................................... 8
                      Cost-Benefit Analysis Not Performed....................................... 9
                      Cost and Schedule Data Not Available ..................................... 10
                      Conclusion ................................................................................. 10
                      Recommendations...................................................................... 11

         II.      AUTOMATED I-94 SYSTEM RISKS NOT ADEQUATELY
                  MANAGED .......................................................................................... 12
                      No Risk Management Plan ........................................................ 12
                      Low Airline Participation Hampers Implementation ................ 13
                      Departure Data Lacks Integrity ................................................. 15
                      Conclusion ................................................................................. 15
                      Recommendations...................................................................... 16

APPENDIX I - STATEMENT ON COMPLIANCE WITH LAWS AND
             REGULATIONS.............................................................................17

APPENDIX II - STATEMENT ON MANAGEMENT CONTROLS ...................... 18

APPENDIX III - OBJECTIVE, SCOPE, AND METHODOLOGY .......................... 19

APPENDIX IV – INS RESPONSE TO THE DRAFT REPORT ..............................21

APPENDIX V – OIG, AUDIT DIVISION ANALYSES AND
             SUMMARY OF ACTIONS NECESSARY TO
             CLOSE THE REPORT ................................................................... 24
                                          INTRODUCTION

       According to the INS’s strategic plan, its mission is “to determine the
admissibility of persons seeking entry and to adjust the status of and provide other
benefits to legally entitled noncitizens within the country with proper regard for
equity and due process. This includes assistance to those who seek permanent
resident status and those who wish to become citizens through naturalization.”

       In 1995, the INS began efforts to identify a process to automate the
collection of I-94 arrival and departure data at airports of entry. The manual
system in use at the time, which continues to be the primary system today,
required most non-U.S. citizen and non-permanent residents entering the United
States to complete one of three forms — the regular I-94 form, the I-94W form for
those visitors participating in the Visa Waiver Pilot Program1, or the I-94T for
those passengers in transit to a final destination outside of the United States.

        The manual form process works as follows. During airline check-in at a
foreign port of departure or during the flight, most non-U.S. citizens receive one of
the I-94 forms that they are required to fill out during the flight. Upon arrival in
the United States, the passenger surrenders the completed form to an INS
inspector. After completion of the inspection process, the inspector detaches the
“departure record” portion of the form and returns it to the passenger. The
inspector retains the “arrival record” portion of the form. The INS sends the
arrival records to a contractor who keys in the data and creates an input tape for
the Nonimmigrant Information System (NIIS). When passengers depart the
United States, the airlines collect the departure records and provide those records
to INS inspectors at the port of entry. The INS also sends the departure record to a
contractor for data entry and the creation of an input tape. Another contractor
uploads the data on the input tapes into NIIS. The data is supposed to be matched
within NIIS to identify overstays.

       In 1995, personnel at the INS were concerned with the reliability of the I-94
data collected with the manual system; they reported in a Systems Development
Life Cycle (SDLC) 2 document the following problems. Arrival data was not
entered into NIIS in a timely fashion. Approximately 25 percent of arrival and

         1
           The Visa Waiver Pilot Program allowed citizens from 29 countries to enter the United States as
visitors for business or pleasure without obtaining a visa. Visitors entering the United States under the Visa
Waiver Pilot Program are permitted to stay up to 90 days, must possess round trip transportation tickets,
and must waive their rights to appeal immigration officers’ determination of admissibility or to contest any
deportation actions. The Visa Waiver Pilot Program has been made permanent. Passengers participating in
the Visa Waiver Pilot Program were also expected to sign and date the I-94 to certify that they had read it,
understood it, and answered the questions on it truthfully.
         2
             The SDLC is the INS’s structured approach to be used when developing information systems.


                                                    -1-
departure records did not match. Departure records were not always collected. As
a result of problems collecting departure records, some nonimmigrants were
identified as overstays even after they had left the country. Forms were often
incomplete and inspection processing was slow. I-94s were not delivered from the
port of entry to the data entry contractor in a timely fashion.

        The Automated I-94 System currently in use was introduced by the INS in
May 1997. The system captures I-94 arrival and departure data electronically at
airports of entry, and it uploads non-U.S. citizen information to the
Arrival/Departure Information System (ADIS)3 which forwards the data to NIIS.
A pilot of the system was operated in Philadelphia by US Airways and the INS.
Currently, US Airways and TWA are the only two participating airlines and only
at four U.S. airports: Charlotte, Philadelphia, Pittsburgh, and St. Louis. For
boarding passengers, the airline produces automated I-94 arrival cards using
Advance Passenger Information System (APIS)4 data. The new automated I-94
arrival card, which is similar to a boarding pass, uses magnetic stripe technology
to encode the APIS data and takes the place of the three manual versions.

        At the port of entry, the passenger presents the I-94 arrival card to the
immigration inspector, who uses the Automated I-94 System to interface with
APIS and the Interagency Border Information System (IBIS)5, and electronically
confirm the arrival. When the inspection is complete, the inspector creates an
arrival record in the local I-94 database by adding the actual arrival information,
produces the automated I-94 departure card, and provides it to the passenger. The
Automated I-94 System generates an admission number that is printed and
encoded on both the arrival and departure cards. The arrival record is stored in a
local database until a daily upload to ADIS occurs. The automated I-94 departure
card, showing the details of admission, is given to the traveler. The traveler is
supposed to surrender it upon departure from the United States. The collection
process is unchanged from the manual system. The departure cards are collected
by the air carriers and returned to the INS. The departure information is
electronically collected and stored in the I-94 database until it is uploaded to
ADIS.
         3
          ADIS is designed to replace NIIS as INS’s central database for nonimmigrant data. It currently
contains only data gathered by the automated I-94 system.
         4
           APIS allows participating airlines to collect biographical information used in the immigration
inspection process at the foreign point of departure and electronically transmit it to the United States. Once
transmitted, the data is used to query IBIS for “lookouts,” and the results of the query are made available to
the port of entry in advance of the arrival of the flight.
         5
          IBIS is an interagency database system maintained by the U.S. Customs Service that maintains
information on all persons of interest to the U.S. Department of State, the INS, Customs, and other federal
agencies. The purpose of the system is to control more effectively the entry of persons into the United
States. A record in IBIS is termed a “lookout.”


                                                    -2-
       Currently, the relevant data from ADIS is transferred to NIIS. Information
from NIIS on individuals that should not be admitted to the United States is
transferred to the National Automated Immigration Lookout System (NAILS).
NAILS data is the INS’s contribution to IBIS, the interagency system that contains
lookouts from the Departments of State and Agriculture, the Customs Service, and
the INS. Finally, the Automated I-94 System queries IBIS to determine if the
individual being inspected is the subject of a lookout. The chart below shows the
relationship of the Automated I-94 System to other databases on which INS
immigration inspectors rely. The flow of information from the I-94 System to the
related systems and subsequent data processing should allow immigration
inspectors to identify confirmed overstays during the inspection process.

                The Automated I-94 System and Related Databases

               Automated
              I-94 System                ADIS                    NIIS



              IBIS (with
              APIS Data)                                       NAILS


Legislative Mandates

       In 1996, the Illegal Immigration Reform and Immigrant Responsibility Act
was passed. Section 110 of the Act required the Attorney General to develop an
automated entry and exit control system to: (1) collect a record of departure for
every alien departing the United States and match the record of departure with the
record of the alien’s arrival in the United States; and (2) enable the Attorney
General to identify, through on-line searching procedures, lawfully admitted
nonimmigrants who remain in the United States beyond the period authorized.

       In June 2000, concerned that full implementation of Section 110 would
cause excessive and costly traffic delays at the land borders, Congress passed the
Immigration and Naturalization Service Data Management Improvement Act. The
Act amended Section 110 to require the Attorney General to create an Integrated
Entry and Exit Data System. This electronic system was to provide access to, and
integrate, alien arrival and departure data that are: (1) authorized or required to be
created or collected under law; (2) in an electronic format; and (3) in a database of
the Department of Justice or the Department of State, including those created or


                                        -3-
used at ports of entry and at consular offices. In addition, unlike Section 110, the
Act prohibits the INS from imposing any “new documentary or data collection
requirements on any person in order to satisfy” the requirement to build an
Integrated Entry and Exit Data System.

Prior Audit Work

       In September 1997, the OIG reported that the INS could not identify
individual overstays and, although the INS had some demographic information on
overstays, it could not adequately describe the characteristics of the overstay
population in the United States, such as countries of origin, occupations, or
worksites where overstays are employed. Such information would assist the INS
in developing an enforcement strategy that effectively targets overstays.

        In the past five years, both the OIG and the U. S. General Accounting
Office (GAO) have reported that the INS does not adequately manage its
automation systems. In July 1999, in a follow-up to a 1998 audit, the OIG found
that: (1) estimated completion dates for some automation projects were delayed
without explanations for the delays, (2) costs continued to spiral upward with no
justification for how the funds are spent, and (3) projects were nearing completion
with no assurance that they would meet performance and functional requirements.

       In August 2000, the GAO reported that the INS does not have an enterprise
architecture which is an institutional systems blueprint that defines in both
business and technology terms the INS’s current and target operating
environments and provides a road map for moving between the two. Moreover,
the GAO found that the limited steps the INS had taken toward developing such a
blueprint had been hampered by a lack of management controls and were therefore
unlikely to produce a complete and useful enterprise architecture. In
December 2000, the GAO reported that the INS did not have the defined and
disciplined investment management processes necessary to effectively manage its
information technology investments.

INS Initiatives

        In response to the two GAO reports referenced above, the INS has two
initiatives under way. According to INS officials, the INS assigned responsibility
for enterprise architecture and information technology (IT) investment
management to the INS Office of Strategic Information and Technology
Development, which has day-to-day responsibility for both the development of an
enterprise architecture and the implementation of an improved IT investment
management process. The INS officials told us that the INS has obtained the FY
2001 funding, staffing, and contractor support needed to implement both the


                                        -4-
enterprise architecture and IT investment management, and that the INS expects to
make significant progress toward development of an INS target architecture within
12 months. As recommended by the GAO, the INS plans to submit its IT
investment management process to the Department of Justice’s Chief Information
Officer for approval. The INS expects the new IT investment management
process to be implemented by the end of FY 2001.




                                      -5-
                       FINDINGS AND RECOMMENDATIONS

      I.     AUTOMATED I-94 SYSTEM PERFORMANCE NOT
             MEASURED

      Although the INS has spent $31.2 million to develop and deploy the
      Automated I-94 System, it has not developed performance measures
      for the system. The INS did not complete many of the steps
      necessary to measure the performance of the system, including:
      (1) the conversion of the project’s intended purpose into measurable
      goals, (2) the collection of baseline information, and (3) a cost-
      benefit analysis. In addition, the INS’s project plan did not include
      cost and schedule data. As a result, the INS does not have evidence
      that the system meets its intended goals, and INS management does
      not have information necessary to determine whether the project is
      progressing as expected. In our judgment, these deficiencies are
      symptomatic of the broad-based weaknesses previously identified by
      the OIG and the GAO.

Performance Measures Not Established

        According to the INS SDLC, performance measurement is an essential
element in developing effective information technology systems. For each goal in
its strategic plan, the INS established a set of performance measures. These
measures enable the INS to assess how effective each of its projects is in
improving operations. For each project plan, as part of the economic analysis, the
INS estimates the performance levels it expects to reach as a result of the planned
improvements. As a project’s improvements are implemented, actual results are
compared with the estimated gains to determine the success of the effort. The
project plan is the crucial document of the information system life cycle.
According to the SDLC, the project plan is subject to approval by the INS
program management and should be produced in the planning phase. The plan
should also be updated, expanded, and refined continually throughout the life
cycle.

       The INS Automated I-94 System project plan provided to us did not include
any performance measures. The 1998 plan, which included both the systems for
air and land ports of entry, listed the project’s goals as reducing the cost of
collecting I-94 data, expediting the entry of I-94 data to the NIIS database,
improving the quality of the data in the NIIS database, and simplifying the I-94
data collection process for passengers, airlines, and the INS. However, the plan
did not define the basis for determining whether or not the system met the stated
goals. Information on performance is necessary for in-depth reviews of a project


                                       -6-
to ensure that the project delivers the intended benefits. If the project does not
deliver the intended benefits, performance data allows management to correct
problems before significant money has been spent.

      The INS commissioned two studies to assess the performance of the
Automated I-94 System. The first, conducted in 1997, was to study whether the
system met its major objectives to:

       • reduce the time to receive, process, and update the INS databases;

       • improve data integrity;

       • reduce data entry costs; and

       • improve data availability.

        Based on data collected over six days, the study concluded that it
“appeared” that the Automated I-94 System improved the accuracy of data for
US Airways flight 0015 from Munich, Germany to Philadelphia. Based on data
collected from flight 0015 over 110 days, the study concluded that it “appeared”
that the automated system improved the timeliness of arrival and departure data.
The study also concluded that the system reduced data entry costs and that there
was no “perceptible difference” in the processing times of the manual system and
the automated system.

        The study noted that US Airways flight 0011 from Madrid, Spain to
Philadelphia was very similar to flight 0015 in passenger composition and the
level of difficulty. The study called for the Madrid flight to be used as a control
flight to compare and quantify the differences between the manual and automated
systems. However, we found no evidence that such a follow-up study was
conducted.

       The second study, conducted in March 2000, collected data on the
inspection time for both the automated and manual systems. Data on the
automated process was collected for 90 minutes. The average inspection took
100 seconds. Data on the manual system was collected over 67 minutes, taking an
average of 60 seconds per inspection.

       In our judgment, neither study provides reliable data on the performance of
the Automated I-94 System. In the first study, the analysis of data accuracy and
timeliness does not include any baseline data. The first study also does not
include any cost data on the automated process, noting that cost for processing the
automated “Arrival cards is yet to be determined,” but concludes that “it should be

                                         -7-
equal to or less than the current Departure card cost.” The first study did not
collect any data on the amount of time required for either the automated or the
manual inspection process. The study concluded that the difference between the
two processes was imperceptible based solely on observation. After reviewing the
study, we cannot make the same conclusions.

        We have the following concerns about the second study. The sample size
was not the same for the automated and manual inspection processes. The impact
of a referral to secondary inspection was not considered. The difference in the
number of people inspected during a given inspection was not held constant.

Stated Goals Not Converted to Measurable Objectives

        For each project plan, the INS estimates the performance levels it expects to
reach as a result of the planned improvements. The project plan is the crucial
document of the information system life cycle. It is first produced in the planning
phase and should be updated, expanded, and refined continually throughout the
life cycle. The project plan should cover project scheduling, staffing, resources,
adjustments to the life-cycle structure, selection of tools and methodologies,
identification of applicable reviews and approvals, configuration management
methods, and other related topics.

        The INS did not translate the goals stated in its project plan to measurable
objectives. For example, one stated goal was to simplify the data collection
process for air passengers. The project plan provides no explanation of how the
INS will know whether or not it achieved this goal. Because the INS has not
established measurable objectives to determine whether the system is achieving its
goals, neither the INS nor we could measure the performance of the system.
According to the INS’s FY 2000 Annual Performance Plan, evaluating programs
is vital to identifying and overcoming weaknesses before the programs are more
widely implemented. The plan listed both automated exit/entry control and port-
of-entry facilitation as areas where evaluation was critical.

Baseline Information Not Gathered

        The project plan did not include baseline information on the then current
level of performance in the areas included as goals: cost reduction, data
timeliness, data quality, and process simplification. Measuring progress is not
possible without baseline information. Establishing a baseline should be one of
the initial tasks in managing the performance of an information technology
project. Without baseline information, the INS will not be able to determine what
progress towards the stated goals of I-94 automation are attributable to the project
and what progress is attributable to other factors such as process improvements.


                                        -8-
Because the INS did not establish the baseline level of performance, it will be
difficult for the INS to measure the performance of the system in meeting its
intended goals.

Cost-Benefit Analysis Not Performed

       According to the SDLC, cost-benefit analysis is a vital management tool for
linking function and budget, and supporting ongoing management oversight. A
preliminary assessment of costs and benefits should be made during the strategic
planning process and should be refined and updated as appropriate throughout the
remainder of the life cycle. At each phase, information should be gathered and
decisions should be made that enable the project team to make increasingly
accurate projections of the total costs and benefits of the system over its projected
life. Subsequently, the cost-benefit analysis should be updated at the end of each
phase. Reasons for updating a cost-benefit analysis include such factors as
significant changes in projected costs and benefits; major changes in requirements,
including legislative or regulatory changes; or empirical data based on
performance measurement gained through prototype or pilot experience.

        The level of detail in the cost-benefit analysis should be commensurate
with the size of the investment.6 When a system provides services to the public,
managers should quantify the performance of the system through systematic
measurement of the outputs. Agencies should seek to maximize return on
investment over the information system life cycle by establishing and evaluating
systematic performance measures. These performance measures should include
the following: effectiveness of program delivery, efficiency of program
administration, and reduction in burden, including information collection imposed
on the public. The revised cost-benefit analysis at each phase of the SDLC
provides up-to-date information to ensure the continued viability of an information
system before and during implementation.

       The INS did not complete a cost-benefit analysis for the Automated I-94
System as developed. According to the project plan, full implementation of the
I-94 automation was based on a successful pilot test in Philadelphia. (See
previous discussion of our concerns about the data used to determine the success
of the Philadelphia pilot.) The INS provided us with a draft cost-benefit analysis
for I-94 automation; however, the magnetic stripe technology selected by the INS
was not one of the alternatives considered in the cost-benefit analysis. Because
the INS has not completed a cost-benefit analysis for the Automated I-94 System


        6
          According to the INS SDLC Manual, a major project is one that is anticipated to cost more than
$10 million.


                                                  -9-
as developed, it lacks the data to decide whether the system is meeting the INS’s
needs.

       The cost-benefit analysis provided to us was a draft version dated
January 1996. The analysis considered three feasible alternatives: (1) continuing
the current manual process; (2) optically scanning I-94 arrival and departure
records and validating the scanned images at the port of entry; and (3) optically
scanning I-94 arrival and departure records at the port of entry and electronically
sending the records to an off-site image processing facility. The analysis
recommended continuing the manual process.

Cost and Schedule Data Not Available

       In January 1998, the INS issued a final project plan for the Automated I-94
System. According to the SDLC, project plans should include cost and schedule
information. The final project plan for the system does not include a budget and
schedule. The INS project manager did not know why the project plan did not
include a budget and schedule because he was not the project manager at the time
the project plan was developed. Without a budget and a schedule, the INS could
not and cannot properly manage the performance of the Automated I-94 system.

Conclusion

        The INS has a substantial history of difficulties in managing its automation
initiatives. In a 1999 follow-up on prior audit work, we noted that the INS did not
adequately manage its automation programs despite the substantial investment it
had made in such programs. We stated that “(1) estimated completion dates for
some automation projects have been delayed without explanations for the delays,
(2) costs continue to spiral upward with no justification for how the funds are
spent, and (3) projects are nearing completion with no assurance that they will
meet performance and functional requirements.” In December 2000, the GAO
noted that the “INS has limited capability to effectively manage its planned and
ongoing IT [information technology] investments.” In our judgment, the
deficiencies noted in the Automated I-94 System are symptomatic of the broad-
based weaknesses previously reported in the INS’s management of automation
projects and may be indicative of the challenges the INS will face when it expands
the Automated I-94 System to land and sea ports of entry.




                                       - 10 -
Recommendations

     We recommend that the Commissioner of the INS:

1.   Prior to making any further expenditures on the Automated I-94 System,
     conduct a cost-benefit analysis that includes the most recent cost and
     benefit data, changes in requirements, and any data on performance.

2.   Use the results of the cost-benefit analysis to determine whether the project
     should proceed. If the results of the cost-benefit analysis indicate that the
     costs outweigh the benefits, notify Congress that the Automated I-94
     System cannot function as required and request relief from the relevant
     portions of the Immigration and Naturalization Service Data Management
     Improvement Act.

3.   Develop and implement performance measures before further implementing
     the Automated I-94 System.




                                     - 11 -
       II.     AUTOMATED I-94 SYSTEM RISKS NOT ADEQUATELY
               MANAGED

       The INS did not adequately manage the risks associated with the
       Automated I-94 System. The project plan recognized a number of
       risks associated with the system; however, the INS did not develop a
       risk management plan as required. One risk, the lack of air carrier
       participation, has halted the deployment of the system as currently
       configured. As a result, the INS plans to modify the system so that
       voluntary air carrier participation is not necessary. Recent INS
       projections estimate that an additional $57 million will be needed to
       fully implement the system.

No Risk Management Plan

        According to the INS SDLC, risk management is: (1) the assessment of a
project’s potential outcomes, including the likelihood of unsuccessful outcomes;
and (2) the process of accepting, transferring, or mitigating risk. A risk
management plan should document and identify project risks and then analyze,
assess, and prioritize those risks. The plan is a control mechanism to monitor and
direct all risk mitigation activities. The tracking of risks in a risk identification list
is a critical facet of successful system development management. The risk
identification list should be used from the beginning of the project and is a major
source of input for the risk assessment activity. According to the SDLC Manual,
risk categories include:

   • “the complexity, difficulty, feasibility, novelty, verifiability, and volatility
     of the system requirements;

   • the correctness, integrity, maintainability, performance, reliability, security,
     testability and usability of the SDLC deliverables;

   • the formality, manageability, measurability, quality and traceability of the
     process used to satisfy the customer requirements;

   • the communication, cooperation, domain knowledge, experience, technical
     knowledge, and training of the people associated with technical and support
     work on the project; and

   • the budget, external constraints, politics, resources, and schedule of the
     external system environment.”




                                          - 12 -
        A risk management plan should score each risk according to the probability
and the resulting impact. The impact of a risk may vary from an inconvenience to
a failure of the project. Risk items with high rankings should be reviewed and a
determination made whether the risks will be accepted, transferred, or mitigated.
If a risk is to be accepted, two options are available: contingency planning and no
action. A contingency plan is a back-up plan to minimize the effects of a risk.
When no action is taken and the risk is accepted, the project team has to accept
responsibility if the risk occurs.

       Like other project activities, reducing the effects of risk requires effort,
resources, and time. Efforts to reduce risk need to be incorporated into the budget,
schedule, and other components of the project plan. The project plan should be
updated to ensure the planning and execution of efforts to reduce risk. If risks
have been accepted, the project plan should refer to the contingency plan.

        The INS did not develop a risk management plan as required by the SDLC.
However, the project plan for the Automated I-94 System contained a list of some
risk areas that could have an adverse impact on the delivery of the system. One
risk area identified in the project plan, the lack of air carrier participation, has
halted the deployment of the system as currently configured. The lack of air
carrier participation and data integrity (a risk not discussed in the project plan) are
addressed below.

Low Airline Participation Hampers Implementation

        Currently, only US Airways and TWA have agreed to participate with the
INS to implement the Automated I-94 System. In its project plan, the INS
recognized that airline participation was a risk; however, it is not clear what steps
the INS took to mitigate this risk. The Department’s FY 1999 Annual
Accountability report indicated that the INS would have to rely heavily on the
cooperation and participation of airlines. One airline, Northwest Airlines, agreed
to test the Automated I-94 System but declined permanent participation. In a
memorandum to the International Air Transport Association, Northwest Airlines
listed the following concerns.

       • The process requires the generation of a paper document. The data that
         the airlines collect for APIS is the same data that is used to generate the
         automated I-94 form. The data in the Interagency Border Information
         System is identical to the data encoded on the automated I-94 form that
         the passenger presents with his or her passport at primary inspection.
         Any and all additional information is handwritten by the passenger on
         the automated I-94 form.



                                         - 13 -
       • Canadian and U.S. Alien residents must complete the new automated
         I-94. With the manual system, Canadians and U.S. Alien residents are
         not required to complete an I-94.

       • Alliances and partnerships mean that full compliance depends upon the
         systems of too many airlines. Logistics may be difficult because
         alliance members’ and partners’ systems may not generate the
         automated I-94 form. To remain competitive, airlines have made
         significant investments in partnerships and automation to enable “one-
         stop” check-in for travel originating all over the world. This often
         requires an airline to rely upon another airline’s system for check in.
         For example, Northwest’s “Global Alliance” with KLM Royal Dutch
         Airlines generates connecting traffic into the Amsterdam hub that is
         bound for the United States. On a typical day, Northwest flights
         departing from Amsterdam can expect connecting passengers from at
         least 24 cities and 8 airlines. Northwest believed that it was unrealistic
         to expect its partners to modify their reservation systems to integrate
         with the Automated I-94 System for the limited number of passengers
         that are ultimately bound for the United States.

       • The Automated I-94 System was not compatible with the way
         Northwest processes tour groups. At Tokyo and Osaka, Japan, upwards
         of 60 percent of local origin passengers are part of tour groups, for
         which most of the check-in and APIS data collection is performed by
         the tour operator. As a result, most of these passengers do not come in
         contact with a service agent who can print the proposed automated I-94.

       • The purpose of the I-94 process is not clear because APIS data provides
         sufficient information to produce departure cards. The tracking of the
         arrival and departure of noncitizens can be accomplished through APIS
         data. Northwest and almost all airlines serving the United States have
         gone to great effort and considerable expense to enable transmission of
         APIS data to IBIS. This IBIS data is shared with the INS, and any
         additional information is not known until the passenger presents himself
         or herself to the primary inspector.

        Managers from the INS acknowledged Northwest Airlines’ concerns with
the Automated I-94 System and said that the INS was willing to address the
concerns of other non-participating airlines. At the conclusion of our audit, INS
officials told us that modifications currently under consideration are intended to
eliminate the need for relying entirely upon carrier participation. However, the
INS officials provided no details on the nature of these modifications to allow us
to determine the feasibility of operating the system without voluntary air carrier

                                       - 14 -
participation. The INS also told us it was concerned about meeting the time frames
for implementing an automated system as directed by the Immigration and
Naturalization Service Data Management Improvement Act of 2000.

        Full implementation of the Automated I-94 System as currently configured
has ceased because most carriers have repeatedly resisted participation.
Consequently, the INS is currently considering ways to redesign the system so that
it does not rely on carrier participation. The INS admits that it did not plan for the
possibility of poor carrier participation. Specifically, the INS did not realize the
impact that air carrier alliances would have on the willingness of airlines to
participate. In our judgment, the INS should address both the concerns of
Northwest and other non-participating airlines before proceeding with the
modifications to the system.

Departure Data Lacks Integrity

        The INS has had a long-standing problem collecting I-94s when
nonimmigrants depart the United States. Staff at the INS believe that the
unrecorded departures are caused by the failure of airlines to collect the departure
records and turn them over to the INS and nonimmigrants departing through land
borders. As noted in the introduction, the Immigration and Naturalization Service
Data Management Improvement Act requires the INS to develop an Integrated
Entry and Exit System at air, land, and sea ports of entry. With regard to air ports
of entry, the manual I-94 system cannot be used to determine the number of
departure records that should be forwarded to the INS for a given flight because
airline manifests are required to separate the passengers into U.S. citizens and non-
U.S. citizens; however, two groups of non-U.S. citizens are not required to submit
an I-94: Canadians and lawfully admitted permanent residents. As a result, the
INS does not know whether the airlines are submitting the correct number of
I-94s. According to an INS official, the INS is aware of the weakness and plans to
address it by modifying its regulations to: (1) require I-94s from Canadians and
lawfully admitted permanent residents, and (2) fine airlines for not submitting the
correct number of departure I-94s.

Conclusion

      In our judgment, the inadequate risk management we found in the
Automated I-94 System is also symptomatic of the broad-based weaknesses
previously reported about the INS’s management of automation projects.




                                        - 15 -
Recommendations

     We recommend that the Commissioner of the INS:

4.   Develop a risk management plan before making further expenditures for the
     Automated I-94 System.

5.   Address the concerns of non-participating airlines before proceeding with
     the modifications to the Automated I-94 System.

6.   Develop a method for determining the number of departure I-94s that
     should be submitted for each flight.




                                    - 16 -
                                                                       APPENDIX I

    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

        We have audited the INS’s management of the Automated I-94 System. In
connection with the audit, and as required by the standards, we reviewed program
activities and records to obtain reasonable assurance about the INS’s compliance
with laws and regulations that, if not complied with, we believe could have a
material effect on program operations. Compliance with laws and regulations
applicable to the INS’s management of automation programs is the responsibility
of the INS management.

        Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted our
test are contained in the relevant portions of the Clinger-Cohen Act of 1996; OMB
Circular A-130; the Illegal Immigration Reform and Immigrant Responsibility Act
of 1996; and the Immigration and Naturalization Service Data Management
Improvement Act of 2000.

        Except for those issues cited in the Findings and Recommendations section
of the report, our tests indicated that, for those items reviewed, the INS was in
compliance with the laws and regulations referred to above. With respect to those
transactions not tested, nothing came to our attention that caused us to believe that
INS management was not in compliance with the laws and regulations cited
above.




                                        - 17 -
                                                                      APPENDIX II

                STATEMENT ON MANAGEMENT CONTROLS

       In planning and performing our audit of the INS’s management of the
Automated I-94 System, we considered the INS’s management controls for the
purpose of determining our auditing procedures. This evaluation was not made for
the purpose of providing assurance on the management control structure as a
whole; however, we noted certain matters that we consider to be reportable
conditions under generally accepted government auditing standards.

       Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management control
structure that, in our judgment, could adversely affect the INS’s ability to
effectively manage the Automated I-94 System. During our audit, we found the
following management control deficiencies.

       • The INS could not determine whether the Automated I-94 System
         would meet its stated goals.

       • The INS had not sufficiently managed the risks associated with the
         project.

       Because we are not expressing an opinion on the INS’s management
control structure as a whole, this statement is intended solely for the information
and use of the INS in managing the Automated I-94 System. This restriction is not
intended to limit the distribution of this report, which is a matter of public record.




                                        - 18 -
                                                                    APPENDIX III

                 OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

     Our objective was to evaluate the design and implementation of the
Automated I-94 System.

Scope and Methodology

       We performed the audit in accordance with Government Auditing
Standards and, accordingly, included such tests of records and procedures as we
deemed necessary. However, we may not be considered by others to be
completely independent of the INS, as required by the standards, because the INS
has reimbursed us for work that pertained to the INS fee-supported programs.
Nonetheless, we consider ourselves independent and do not believe that our
reimbursement arrangement with the INS has had any effect with regard to the
conduct of our audit.

        Generally, our audit focused on the INS’s efforts to automate the collection
of I-94 arrival and departure data from June 1995 to January 2001. Our work was
performed at the offices of the INS headquarters in Washington, DC, as well as
Philadelphia, PA, St. Louis, MO, Minneapolis, MN and Charlotte, NC. As part of
our assessment of the Automated I-94 System, the Office of the Inspector General
initiated and completed a separate audit of selected computer security controls
designed to assure the integrity of the Automated I-94 System data.

       To accomplish the audit objective, we:

       • reviewed SDLC documentation for the project;

       • reviewed INS funded studies of the Automated I-94 System performed
         by the Rail Corporation and Regal Decision Systems;

       • interviewed INS personnel in Inspections and the Office of Information
         Resources Management in Washington, DC and Inspections personnel
         in Charlotte, NC, Philadelphia, PA and St. Louis, MO;

       • interviewed contractor personnel in Charlotte, NC, and St. Louis, MO;




                                       - 19 -
• observed the automated I-94 process in Charlotte, NC,
  Philadelphia, PA, and St. Louis, MO; and

• interviewed personnel from Northwest Airlines, US Airways, and TWA
  who have participated in the automated I-94 process.




                              - 20 -
         APPENDIX IV




- 21 -
- 22 -
- 23 -
                                                                    APPENDIX V

            OIG, AUDIT DIVISION ANALYSES AND SUMMARY
              OF ACTIONS NECESSARY TO CLOSE REPORT

Recommendation Number:

1. Resolved. This recommendation is resolved based on the INS’s agreement to
   conduct a cost-benefit analysis that will include the most recent cost and
   benefit data and a high-level risk assessment plan. The INS’s comments on the
   draft report do not explicitly state that the cost-benefit analysis will include
   changes in requirements and any data on performance. In our judgment, this
   information should be included. In the corrective action process for this audit
   we will follow-up with the INS regarding the need to include in the final cost-
   benefit analysis any changes in requirements and performance data. This
   recommendation can be closed when we receive a copy of an acceptable cost-
   benefit analysis.

2. Resolved. This recommendation is resolved based on the INS’s agreement to
   prepare a cost-benefit analysis that includes recommendations on whether the
   project should proceed. This recommendation can be closed when we receive
   a copy of the cost-benefit analysis recommendations, and if applicable, a copy
   of any notification to Congress indicating that the Automated I-94 System
   cannot function as required.

3. Resolved. This recommendation is resolved based on the INS’s agreement to
   develop and implement performance measures before further implementing the
   Automated I-94 System. The INS’s comments on the draft report note that one
   performance measure, the percentage of arrival/departure information on non-
   immigrant travelers updated within 24 hours of arrival/departure, currently
   exists. We reiterate that the Automated I-94 System project plan provided to
   us did not include this or any other performance measure. Some existing
   performance-related data not directly tied to the project’s goals through an
   evaluation methodology, which should be defined in the project plan, does not
   constitute a performance measure. This recommendation can be closed when
   we receive evidence that performance measures have been developed and
   implemented, as appropriate.

4. Resolved. This recommendation is resolved based on the INS’s agreement to
   develop a risk management plan before making further expenditures for the
   Automated I-94 System. This recommendation can be closed when we receive
   a copy of the risk management plan.



                                      - 24 -
5. Resolved. This recommendation is resolved based on the INS’s agreement to
   address the concerns of non-participating airlines before proceeding with the
   modifications to the Automated I-94 System. This recommendation can be
   closed when we receive evidence indicating that the concerns of non-
   participating airlines have been addressed.

6. Resolved. This recommendation is resolved based the INS’s concurrence and
   agreement to take the recommendation into consideration in the development
   of the automated entry/exit system. Once the cost-benefit analysis is complete,
   and if a decision is made to further deploy the system, we will request from the
   INS its assessment of the possible methodologies for determining the number
   of departure I-94s that should be submitted for each flight.




                                      - 25 -
